                              .   -



                                            OFFICE OF INSPECTOR GENERAL
                                              OFFICE OF INVESTIGATIONS

                                      CLOSEOUT MEMORANDUM




        This investigation was initiated based on a referral from the Cost Analysis & Audit
Resolution Branch (CAAR), Division of Institution and Award Support. During a site visit to a
grantee,1CAAR discovered that since 2004, the project director2for the NSF grant3 was being
paid 25% salary from the grant sub-award to the project director's university4 while also
receiving 50% salary directly from the grantee. CAAR requested our assistance to determine if
the project director was receiving more than 100% of her salary between salary payments from
both the university and the grantee.

        We received payroll and appointment documents from the university and found that in 2004,
when university professor was appointed project director, the university salary was reduced to 25%.
That 25% university salary is to support the project director's efforts as that state coordinator for the
project. The 50% grantee salary is to support her efforts as the national project director. We
concluded that the project director was not receiving more than 100% support by combining her
salary from both institutions.

        Accordingly, this case is closed.
